BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-303
UNITED STATES OF AMERICA,

Petitioner,
v.
JOSE LUIS VAELLO-MADERO,

Respondent.
As required by Supreme Court Rule 33. l(h), I certify
that the Brief of League of United Latin American
Citizens as Amicus Curiae in Support of Respondent
contains 1,390 words, excluding the parts of the Brief
that are exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on September 7, 2021.

Donna J. Wolf
Becker Gallagher Legal Publis
g, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

Notary Public
[seal]

